         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
             ASSISTANT INSPECTOR GENERAL
                DEPARTMENT OF DEFENSE
                      BEFORE THE
          COMMITTEE ON GOVERNMENTAL AFFAIRS
                 UNITED STATES SENATE
                           ON
         EXPORT CONTROL IMPLEMENTATION ISSUES




Report No. D-2000-132         DELIVERED: May 26, 2000



             Office of the Inspector General
                 Department of Defense
                                                                   1


Mr. Chairman and Members of the Committee:



I appreciate the opportunity to discuss the Federal Government’s

export licensing processes for militarily sensitive, dual-use

commodities and technology.   As you know, in response to a

request from this Committee in August 1998, Inspector General

teams from the Commerce, Defense, Energy, State, and Treasury

Departments and the Central Intelligence Agency reviewed a

series of issues related to export controls for both dual-use

items and munitions.   The results were contained in an

interagency report and six individual agency reports issued in

May and June 1999, and were the subject of your hearing on

June 23, 1999.   Some of those results are pertinent to the

ongoing dialogue on renewing the Export Administration Act of

1979, so I will recap the principal findings on dual-use items

as a prelude to commenting on factors that merit consideration

in terms of new export control legislation.



Interagency Inspector General Report in June 1999



Dual-use commodities are goods and technologies with both

military and commercial applications.   The current dual-use

export licensing process was established by the Export

Administration Act of 1979, as amended.   Although the Act
                                                                2


expired in 1994, its provisions are continued by Executive

Orders 12924, “Continuation of Export Control Regulations,” and

12981, “Administration of Export Controls,” under the authority

of the International Emergency Economic Powers Act.   Munitions

exports are controlled separately under the provisions of the

Arms Export Control Act.



The dual-use export licensing process is managed and enforced by

the Department of Commerce.   The Departments of Defense and

Energy review the applications and make recommendations to

Commerce.   The Central Intelligence Agency and the U.S. Customs

Service provide relevant information as well.   Customs also

enforces licensing requirements for all export shipments except

outbound mail, which is handled by the Postal Service.



The 1999 interagency IG report included findings in seven areas.

Three of those areas are pertinent to new dual-use export

legislation.



The first area related to the adequacy of export control

statutes and executive orders.   We concluded that, in general,

the Arms Export Control Act and the provisions of the Export

Administration Act, as clarified by Executive Order 12981, were

consistent and unambiguous.   However, the Commerce and Defense
                                                                 3


IG teams stressed that the dual-use licensing process would be

best served if the Export Administration Act were reenacted,

rather than to continue to operate under a patchwork of other

laws and executive orders.    In addition, policy and regulations

regarding the export licensing requirements for technical

information “deemed to be exports” needed clarification, and the

exporter appeals process should be formalized.



The second area pertained to procedures used in the export

license review processes.    The Commerce, Defense, Energy and

State IG teams concluded that processes for the referral of

dual-use license applications and interagency dispute resolution

were adequate.    Officials from those Departments were generally

satisfied with the 30-day time limit for agency reviews under

Executive Order 12981; however, not every agency could meet that

limit.    Several Defense organizations and the CIA indicated they

would benefit from additional time to review dual-use license

applications.    Another major point was that the Commerce

commodity classification process could benefit from additional

input on military-related items from the Departments of Defense

and State.    The commodity classification process matches a

prospective export item with an export control classification

number.   Those determinations indicate whether an item requires
                                                                 4


an export license and, if so, whether it is licensable by

Commerce or State.



The third area pertained to the cumulative effect of multiple

exports to individual foreign countries.   The U.S. Government

lacked meaningful cumulative effect analysis.   Some of the

agencies involved in the export licensing process performed

limited cumulative effect analyses, but to varying degrees.     The

Commerce, Defense, Energy and State IG teams concluded that

additional cumulative effect analysis would benefit the license

application review process.



The IG teams made specific recommendations relevant to their own

agencies.   Those recommendations and management comments are

included in the separate reports issued by each office.



Department of Defense IG Report in June 1999



Now I would like to change focus from the interagency report to

the report issued by my office on June 18, 1999.   Although our

report addressed 14 separate issues posed by Chairman Thompson’s

August 1998 request, for this testimony I will cover only those

that relate to the Export Administration Act.
                                                                  5


One issue was whether Commerce was properly referring export

license applications for review by other agencies.



Defense officials expressed general satisfaction with referrals

of dual-use export license applications from Commerce.

Conversely, they were concerned that Commerce referred too few

commodity classification requests to Defense for review. In FY

1998, exporters submitted 2,723 commodity classification

requests containing 6,161 line items to Commerce.    From April

1996 through March 1999, a mere 12 of those requests were

referred to Defense for review.



Another issue concerned the interagency dispute resolution

process for appealing disputed license applications.



The current interagency dispute resolution process provides

multiple appeal levels and has given Defense a reasonable

opportunity to appeal disputed dual-use license applications.

Executive Order 12981 provides for multiple appeal levels.

Agencies can escalate disputes regarding applications

successively to the Operating Committee, the Advisory Committee

on Export Policy, the Export Administration Review Board and the

President.   Appeals have been infrequent.   For example, the

Advisory Committee on Export Policy reviewed an average of
                                                                6


48 cases annually from FY 1996 through FY 1998 and there have

been no recent appeals to the President.



Other issues related to whether the current licensing processes

adequately took into account the cumulative effect of technology

transfers.



We found that the licensing process at the Defense Threat

Reduction Agency occasionally took into account cumulative

effect, but participants in the licensing process did not

routinely analyze the cumulative effect of proposed exports or

receive assessments to use during license reviews.   In addition,

Defense organizations did not conduct required annual

assessments that could provide information on the cumulative

effect of proposed exports.   The Defense Threat Reduction Agency

has initiated actions to increase the degree to which cumulative

effect analysis is incorporated into the licensing process.    We

recognize that organizing and resourcing a meaningful cumulative

effect analysis process pose a significant challenge, but

continue to believe that this is clearly an area warranting more

emphasis.
                                                                 7


Inspector General Reports in March 2000



We recently completed the first of seven annual interagency

audits of technology transfer issues mandated by Section 1402 of

the National Defense Authorization Act for Fiscal Year 2000.     In

conjunction with the Inspectors General of Commerce, Energy and

State, we focused this year’s review on “deemed exports.”     The

results are included in an interagency report dated March 24,

2000.   The DoD portion of the results was included in the

interagency report and was also issued by us as a separate

report on March 24, 2000.



We reviewed controls related to foreign visitors to Government

and contractor facilities.   For example, foreign nationals visit

Federal research facilities for various reasons, as well as

under various international agreements and programs.   During

those visits, foreign nationals may have access to export-

controlled software or technology.   The release to foreign

nationals of technical data that meet the criteria of the Export

Administration Regulations or the International Traffic in Arms

Regulations is considered an export.   According to those

regulations, the oral, visual, or written disclosure of

technical data to a foreign national may require a “deemed”

export license.   In general, there is inadequate awareness of
                                                                8


licensing requirements for “deemed exports” and widespread

noncompliance by both Government and industry.   This is an area

needing more explicit statutory or regulatory guidelines.



Separate classified reports were also issued in response to

the additional Authorization Act requirement for a review of

counterintelligence issues related to technology transfer.



A New Export Administration Act



In commenting on issues related to a new Export Administration

Act, I emphasize that these views are those of the IG, DoD, and

do not necessarily reflect the positions of DoD managers or the

managers and IGs of other Federal agencies.



As previously mentioned, we believe there is a clear need to

reenact the Export Administration Act.   During the two decades

since that law was enacted, commercial technologies and products

have become vastly more applicable to military systems and

capabilities, especially in the information technology arena.

The Cold War has ended and international trade has expanded.

It is vital for our national security that the export control

regime for dual-use commodities be firmly grounded in a

comprehensive, clear and up to date statute.   We further
                                                                 9


believe that S.1712, the Export Administration Act of 1999,

is a good start toward such a statute; however, it needs to be

improved in a few areas.   We respectfully offer the following

observations and suggestions regarding the control of dual-use

technology transfers.



General Process Challenges


Any process prescribed by law or regulation for export

controls must strike difficult balances related to efficiency

(timeliness) and effectiveness (reasonable and prudent decision

making).



Controlling technology transfer is what might be termed

a horizontal issue for the Federal Government, in the sense

that several agencies and multiple components of those agencies

need to participate in any meaningful process.   Both within

large organizations like the DoD and on an interagency basis,

horizontal issues are particularly hard to deal with because

Government is organized on a vertical basis.   For a cross-

cutting process to be effective, there must be objective

mechanisms or procedures in place to coordinate agency efforts,

resolve conflicting advice and make decisions.   It would be
                                                                 10


prudent to provide explicit statutory underpinning to the

interagency dispute resolution process.



The export control license review process must be able to handle

a very large number of transactions expeditiously, but without

sacrificing the quality of reviews.   The Department of Commerce

received 10,696 dual-use export license applications in FY 1998

and 12,650 in FY 1999.   We do not have a good insight into the

potential for reducing the number of controlled items without

undue national security risk, but we are aware that the issue

is being discussed within both the Administration and Congress.

In addition, the next interagency IG review will focus on both

of the existing Control Lists to examine the procedures by which

items are added to or deleted from them.   Regardless of any

changes made to licensing requirements, however, it is virtually

certain that the number of export license applications will

remain very large.   This high volume is a major consideration

when both timely processing and due diligence on all application

reviews are concerns.



A high volume process will bog down if it is overly complex and

if agencies are not willing and able to apply enough resources

to execute it effectively.   In addition to the sheer volume of

export issues to be reviewed, agencies will be continually
                                                                 11


challenged by the entry of new technologies and products into

the market.   This will severely challenge the technical

expertise of licensing officials, intelligence analysts and

other supporting personnel.   Agencies should be required to do

sound workforce planning, with emphasis on determining required

specialties and training, and to develop mechanisms for rapidly

augmenting permanent inhouse staff when necessary.   Efficient

information sharing through the use of the best available

information technology is also essential.   These kinds of

management considerations probably are best addressed through

regulation, rather than by statute, to provide flexibility.



National Security Control List



The most meticulously designed and carefully executed export

control process will fail if it is easily circumvented.

Therefore we urge particularly close attention during the

consideration of new statutory and regulatory guidance on

determining the makeup of a Control List and on granting

exceptions to export license requirements for controlled items.



The Export Administration Act of 1979 required that a list of

DoD-developed militarily critical technologies be integrated

into the overall Control List of items requiring an export
                                                                 12


license.   Any disagreement between the Secretaries of Commerce

and Defense over the integration of an item on the list of

militarily critical technologies into the Control List was

to be resolved by the President.   We believe those provisions

were prudent and any new Export Administration Act should

continue to allow appeal, through the interagency dispute

resolution process, to the President.   No Department should

have unilateral control over adding items to the Control List

or deleting them.



Determination of Foreign Availability and Mass-Market Status



One potential reason for deciding not to control the export

of a technology or product could be that an equivalent item

is already widely sold on the international market.   In our

opinion, a determination not to put or keep an item on the

Control List because of foreign availability and mass-market

status should never be made without prior consultation with

the national security community and, unless the President

directs otherwise, the concurrence of the Secretary of Defense.



Although it is unlikely that Defense would do mass-market and

foreign availability analyses, the methodology for doing those

studies should be clearly defined and well understood by all
                                                                13


agencies that would be interested in the study results.

Likewise, all analyses should be well documented and agencies

should have formal internal quality assurance procedures

to ensure the reliability of their study results.   The same

principles hold true for cumulative effect analyses.



It would not be the normal role of the IGs or General

Accounting Office to perform studies on mass-market and foreign

availability or on the cumulative impact of exports to specific

countries.   However, auditors and evaluators could periodically

test the controls for quality assurance for studies.    A rigorous

peer review program could also be appropriate as part of the

quality assurance effort.



Other License Exceptions



We believe it would best serve the national interest to keep

any license exception authority fairly limited.   Certain high-

risk items, for example, those that could contribute to the

proliferation of weapons of mass destruction, encryption

technology and certain components of jet engines, never

should be exported without an export license, regardless

of destination.
                                                                  14


Commodity Classification Requests



As identified in our 1999 report on the Defense export licensing

process, a formal interagency process is needed in determining

the commodity classification of an item on the Control List, so

that all perspectives can be considered.



Last year, as part of the joint IG review, a statistical sample

of 100 commodity classification decisions made by Commerce as

well as 3 additional items that were designated as "no license

required" were reviewed to determine if a proper commodity

classification decision had been made for those items.    While

Defense was satisfied with Commerce's decision on 90 of the

103 commodity classifications, they felt the remaining 13 were

either misclassified or lacked sufficient information.    The

Commerce and Defense IG teams asked officials to jointly

reexamine these 13 decisions.   The officials agreed that

Commerce had properly classified 4 items and misclassified one

item.



There were varying degrees of disagreement on the other

8 decisions.   For example, Defense officials questioned a

Commerce decision regarding a ruggedized, portable, encrypted

radio.   Commerce officials stated that the radio had not been
                                                                   15


built to military standards and therefore was not a munitions

item under the jurisdiction of the International Traffic in Arms

Regulations.   Defense officials noted that literature described

the radio as militarized and other radios built by the

manufacturer were subject to munitions export licenses.     The

second request was for an antenna.   Commerce officials stated

that the antenna was not a munitions item, despite company

literature describing it as militarized.   Defense officials

stated that the literature satisfied International Traffic in

Arms Regulations criteria for a “defense article” (munitions)

and that the manufacturer had a history of exporting products

under the munitions export licensing process.



Anecdotal evidence provided to the auditors suggested that

Commerce could make incorrect commodity classification decisions

if it does not receive Defense advice on those decisions.     In

1995 and 1997, Commerce decided that microchannel plates (used

in night vision devices) fell under the Export Administration

Regulations even though Commerce, Defense and State had decided

in 1991 that this type of item fell under the jurisdiction of

the International Traffic in Arms Regulations.   In 1995,

Commerce determined that a U.S. aerospace company’s accident

report on a failed Chinese rocket launch that contained

technical data fell under the Export Administration Regulations
                                                                  16


rather than the International Traffic in Arms Regulations.    In

1996, Commerce determined that a protective suit fell under the

Export Administration Regulations, while Defense and State held

that it was a chemical and biological defensive suit subject to

the International Traffic in Arms Regulations.



I do not have a basis for affirming which position was correct

in these cases; however, I believe it is clear that these are

difficult decisions and the full range of opinion from various

elements of the Government ought to be elicited and considered.



In our view, either a law or regulation should require the

Department of Commerce to refer all commodity classification

requests promptly for Defense review and allow a reasonable time

period for Defense to review those referrals.    If there is no

agreement on the commodity classification, an interagency

dispute resolution process should be initiated to determine the

final outcome.



Application Review Procedures



Executive Order 12981 prescribed additional procedures for

export license applications submitted under the Export

Administration Act of 1979.   Among other things, those
                                                                 17


procedures required the Department of Commerce to refer all

dual-use license applications to the Department of Defense.

Last year’s interagency review indicated that those procedures

have worked fairly well and we believe a new Export

Administration Act should provide for their continuation.   It

should remain mandatory, under any future procedure, that all

applications, unless otherwise delegated by the Secretary of

Defense, be referred to the Department of Defense for review.



Summary



The Office of Inspector General, DoD, strongly supports the

enactment of a new Export Administration Act.   This vital area

deserves a comprehensive statutory framework that clearly

prescribes the roles and responsibilities of all interested

Departments and Agencies.   We urge that legislation in this

area provide to the Secretary of Defense the authority to ensure

that national security concerns are carefully addressed in the

dual-use export control process.



The stakes involved in technology transfer decisions are apt to

be very high for the applicants, the economy, foreign relations

and national security.   Therefore the process must provide for

clear accountability, as much openness as is possible given that
                                                                     18


classified matters are often involved, and objectivity.         It is

vitally important that the process not be perceived as being

inherently biased toward the agenda of any particular agency or

faction within Government.      The best safeguard in that respect

is a viable interagency dispute resolution process, applicable

to all facets of the export control program and explicitly

underpinned by a new Export Administration Act.



The text of the unclassified reports mentioned in this testimony

can be accessed on the Web at www.dodig.osd.mil.   The numbers and

titles are as follows:



No. 99-186, Review of DoD Export Licensing Processes for Dual-
Use Commodities and Munitions, June 18, 1999

No. 99-187, Interagency Review of the Export Licensing Process
for Dual-Use Commodities and Munitions, June 18, 1999

No. D-2000-109, Interagency Review of the Export Licensing
Process for Foreign National Visitors, March 24, 2000

No. D-2000-110, Export Licensing at DoD Research Facilities,
March 24, 2000


Thank you for considering our views.
